HHS/OIG - Audit,"Review of Office of Community Services Discretionary Grant Award Number 90EE0189 - Corinthian Housing Development Corporation,"(A-12-02-00006)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Office of Community Services Discretionary Grant Award Number
90EE0189 - Corinthian Housing Development Corporation," (A-12-02-00006)
April 5, 2002
Complete
Text of Report is available in PDF format (392 kb). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of the Administration
for Children and Families grant number 90EE0189 awarded to the Corinthian Housing
Development Corporation (CHDC) for the period September 1996 through September
2000.  In general, CHDC did not accomplish its grant objectives and did
not always comply with the standard terms and conditions of the grant or manage
funds properly.  Specifically, the proposed health and education center
was not developed; jobs were not created; progress reports were not submitted
timely; the executive director's salary and pre-award costs were improperly
paid from the grant; other contracted services were not adequately segregated
from the corporate business funds, and a $16,680 check to cover architectural
expenditures did not have any required signatures.  We recommended financial
adjustments and improvements to internal controls.